OIG Investigative Reports,Washington. DC April 24, 2014 - OIG Investigative Reports,Washington. DC  April 24, 2014 - Former Executive Director of Public Charter School Sentenced to Nine Months in Prison For Stealing $29,000 in Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
District of Columbia
NEWS
FOR IMMEDIATE RELEASE
Thursday, April 24, 2014
For Information Contact:
Public Affairs
(202) 252-6933
http://www.justice.gov/usao/dc/index.html
Former Executive Director of Public Charter School Sentenced to Nine Months in Prison For Stealing $29,000 in Funds
-Defendant Wrote Series of Checks for Personal Benefit-
WASHINGTON – Monique S. Murdock, 45, the former executive director of Nia Community Public Charter School, was sentenced today to nine months in prison on a federal theft charge stemming from the embezzlement of $29,000 in funds meant for the school.
The sentence was announced by Ronald C. Machen Jr., U.S. Attorney for the District of Columbia; Dana J. Boente, U.S. Attorney for the Eastern District of Virginia; Valerie Parlave, Assistant Director in Charge of the FBI’s Washington Field Office; Charles J. Willoughby, Inspector General for the District of Columbia; Steven Anderson, Special Agent in Charge, Mid-Atlantic Regional Office, Office of Inspector General, U.S. Department of Education, and Robert E. Craig, Special Agent in Charge of the Mid-Atlantic Field Office of the Defense Criminal Investigative Service (DCIS).
Murdock, of Fort Washington, Md., pled guilty in November 2013 in the U.S. District Court for the District of Columbia to a charge of theft from a program receiving federal funds. As part of her guilty plea, Murdock also admitted making unauthorized purchases with a government-issued purchase card while she worked for another employer in Virginia.
She was sentenced by the Honorable Richard J. Leon. Upon completion of her prison term, Murdock will be placed on three years of supervised release; Judge Leon ordered that the first three months of that time be spent on home confinement. Judge Leon also ordered Murdock to pay more than $40,000 in restitution for her crimes. Finally, he ordered her to pay an additional $29,000 forfeiture money judgment.
According to the government’s evidence, Murdock was a co-founder of Nia Community Public Charter School and its executive director from June 2006 through October 2008. As the executive director of the Northeast Washington school, she had the primary responsibility of overseeing its fiscal management.
Public charter schools are independently-operated public schools that are open to all District of Columbia residents. Enrollment is on a space-available basis. Public charter schools receive public funds based on the number of students they enroll. Nia Community Public Charter School, for example, received funding through the District of Columbia Public Charter School Board as well as through the U.S. Department of Education.
Between July 2006 and August 2008, the school received more than $3.3 million from the District of Columbia Public Charter School Board. The school also received more than $548,000 from the U.S. Department of Education during the 2007 and 2008 fiscal years.
From March 2008 through August 2008, Murdock signed five checks on the school’s account, totaling $29,000, and converted them to her own personal use and benefit.
The theft charge involved the money stolen from the charter school.
The guilty plea also resolved a criminal investigation in Virginia. After separating from the school, Murdock was hired in August 2009 as a Child Youth and School Services Assistant Director by the Cody Development Center in Fort Myer, Va. In this position, she was provided with a government purchase card that was to be used for buying work-related items.
As part of her plea, Murdock admitted that from February 2012 through December 2012 while employed by the Cody Development Center, she used her government purchase card to make $11,773 in unauthorized gift card purchases.
Murdock’s restitution payments will include $29,000 to the U.S. Department of Education and another $11,773 to the U.S. Department of Defense.
The theft from Nia Community Public Charter School was investigated by the FBI’s Washington Field Office, the District of Columbia Office of the Inspector General, and the U.S. Department of Education’s Office of Inspector General. The activities at the Cody Development Center were investigated by the Office of the Inspector General for the Department of Defense.
U.S. Attorney Machen, U.S. Attorney Boente, Assistant Director in Charge Parlave, Inspector General Willoughby, Special Agent in Charge Anderson, and Special Agent in Charge Craig commended the work of those who investigated the matters. They also acknowledged the efforts of those who worked on the case from the U.S. Attorney’s Office for the District of Columbia, including Paralegal Specialists Krishawn Graham and Diane Hayes and Assistant U.S. Attorney Catherine K. Connelly, who assisted with forfeiture issues. Finally, they thanked Assistant U.S. Attorney Lionel André, who prosecuted the case.
14-097
Top
Printable view
Last Modified: 05/13/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov